                                                                                Legal Services Corporation

=,LLSC                                                                          Office of Inspector General




Inspector General
Jeffrey E . Schanz



           March 27, 2009


           Ms. Devon Lomayesva
           Executive Director
           California Indian Legal Services
           609 S. Escondido Boulevard
           Escondido, CA 92025

           Dear Ms. Lomayesva:

          Enclosed is the Office of Inspector General's final report on the results of
          our audit on Selected Internal Controls at California Indian Legal
          Services. Your response to the draft report described actions to address
          Recommendations I,2, 3, 4, 5, 7, 8, and 9. These actions address the
          issues addressed in the report. However, with the exception of
          Recommendation 9, these actions were not complete. Therefore,
          Recommendations I,2, 3, 4, 5, 7, and 8 will remain open until the OIG
          is notified that management actions for each recommendation are
          complete. Please provide this office evidence of actions taken on each
          recommendation when completed. Also, please provide us with a copy
          of the Accounting Manual when approved and implemented.

          Since all actions have been completed in regard to Recommendation 9,
          this recommendation is considered closed.

          In your comments, you disagreed with the finding and
          Recommendation 6 pertaining to the allocation of costs for contractor
          services. This disagreement along with the associated questioned costs
          will be referred to LSC management for action.

          In addition to referring the questioned costs associated with
          Recommendation 6, the questioned costs associated with
          Recommendations 3, 4, and 5 will also be referred to LSC management
          for action.



                                                                               3333 K Street. NW 3rd Floor
                                                                               Washington. DC 20007-3522
                                                                               Phone 202.295.1660 Fax 202.337.661 6
                                                                               www.oig.lsc.gov
I want to thank you and your staff for the cooperation and assistance
you provided us.

Sincerely,




Inspector General



cc :   Legal Services Corporation
       Helaine Bamett, President
     LEGAL SERVICES CORPORATION
     OFFICE OF INSPECTOR GENERAL




  REPORT ON SELECTED INTERNAL
           CONTROLS



CALIFORNIA INDIAN LEGAL SERVICES
             RNO 705158


          Report No. AU09-03


             March 2009
            www.oiq.Isc.qov
                            TABLE OF CONTENTS
INTRODUCTION ........................................................................................ I

BACKGROUND.......................................................................................... 1

OBJECTIVE................................................................................................ I

SCOPE AND METHODOLOGY ...................................

SCOPE LIMITATION .................................................................................. 2

OVERALL EVALUATION ........................................................................... 2

RESULTS OF AUDIT ................................................................................. 3

   INTERNAL CONTROLS OVER FINANCIAL MATTERS ........................3
     Recommendation 1 ............................................................................ 4
       Grantee Management Comments..................................................4
       Evaluation of Grantee Management Comments ............................4

   FOLLOW-UP ON GAO CONCERNS .....................................................4
     Recommendation 2 ............................................................................ 4
       Grantee Management Comments..................................................5
       Evaluation of Grantee Management Comments ............................5

  DISBURSEMENTS AND SUPPORTING DOCUMENTATION................5
    Supporting Documentation................................................................... 5
     Recommendation 3 ............................................................................ 6
       Grantee Management Comments..................................................6
       Evaluation of Grantee Management Comments ............................7

       Coding Errors..................................................................................... 8
       Recommendation 4 ............................................................................8
         Grantee Management Comments..................................................                    8
         Evaluation of Grantee Management Comments ............................9

     Tribal Court Conference/Contractor Payments ....................................9
      Recommendation 5 ..........................................................................I 0
         Grantee Management Comments................................................I 0
         Evaluation of Grantee Management Comments ..........................11

     Allocation of Costs for Contractor Services ........................................ 12
      Recommendation 6 ..........................................................................12
         Grantee Management Comments................................................ 12
         Evaluation of Grantee Management Comments .......................... 13
    Cost Allocation Process ..................................................................... 13
     Recommendation 7 .......................................................................... 14
       Grantee Management Comments................................................ 14
       Evaluation of Grantee Management Comments .......................... 15

 INTERNAL CONTROL REVIEW OF OTHER SELECTED AREAS .......15
   Strategic Plan..................................................................................... 15
    Recommendation 8 .......................................................................... 16
       Grantee Management Comments................................................16
       Evaluation of Grantee Management Comments .......................... 16

   Cost Center Budgeting....................................................................... 16
    Recommendation 9 .......................................................................... 16
      Grantee Management Comments................................................ 16
      Evaluation of Grantee Management Comments ..........................17

GRANTEE MANAGEMENT COMMENTS .............................. APPENDIX I
                                 INTRODUCTION

In November 2007, management of the Legal Services Corporation (LSC) referred
for follow-up to the Office of Inspector General (OIG) instances of internal control
weakness at certain LSC grantees identified in the Government Accountability
Office (GAO) Draft Report entitled, Legal Services Corporation - Improved Internal
Controls Needed in Grants Management and Oversight or indentified in a
November 13, 2007 meeting between GAO and LSC staff. The final GAO report
(GAO-08-37) was published on December 28,2007.

LSC management requested that the OIG assess whether the issues specifically
identified by GAO had been corrected at each of the grantees referred to the OIG
by management.


                                 BACKGROUND

GAO assessed whether LSC's internal controls over grants management and
oversight processes provide reasonable assurance that grant funds are used for
their intended purposes. GAO analyzed records and interviewed LSC officials to
obtain an understanding of LSC's internal control framework, including the
monitoring and oversight of grantees, and performed limited reviews of internal
controls and compliance at 14 grantees. GAO found control weaknesses at 9 of
the 14 grantee sites it visited. These weaknesses included using LSC grant funds
for expenditures with insufficient supporting documentation, and for unusual
contractor arrangements, alcohol purchases, employee interest-free loans,
lobbying fees, late fees, and earnest money.


                                   OBJECTIVE

Our overall objective was to determine whether the conditions cited in the GAO
report were corrected and controls were put in place by California Indian Legal
Services (grantee) to detect similar situations and prevent them from recurring. In
addition, we evaluated other selected financial and administrative areas relating to
the GAO findings and tested the related controls to ensure that expenditures were
adequately supported and allowed under the LSC Act and regulations.


                         SCOPE AND METHODOLOGY

To accomplish our objective we reviewed controls over the client intake process
(Escondido), employee benefits and reimbursements, disbursements and internal
management reportinglbudgeting. To obtain an understanding of the internal
controls over these areas, we reviewed grantee policies and procedures, including
any manuals, guidelines, memoranda, and directives setting forth current grantee
practices. We interviewed grantee officials to obtain an understanding of the
internal control framework and interviewed grantee management and staff as to
their knowledge and understanding of the processes in place.

We conducted fieldwork at the grantee's central administrative office located in
Escondido, California. To test for the appropriateness of expenditures and the
existence of adequate supporting documentation, we reviewed disbursements
from a judgmentally selected sample of employee and vendor files. To assess the
appropriateness of grantee expenditures, we reviewed invoices, vendor lists, and
general ledger details. The appropriateness of grantee expenditures was based
on the grant agreements, applicable laws and regulations, and LSC policy
guidance. This review was limited in scope and was not sufficient for expressing
an opinion on the entire system of grantee internal controls or compliance.

The on-site fieldwork was conducted from May 13, 2008 through May 16, 2008.
Documents reviewed pertained to the period January 1, 2007 through May 13,
2008. Our work was conducted at the grantee's site and at LSC headquarters in
Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


                               SCOPE LIMITATION

During the audit we encountered a scope limitation in evaluating the adequacy of
internal controls. Government auditing standards require that we report any
significant constraints imposed on the audit approach by information limitations.
The OIG did not have available to it the grantee's Accounting Manual. Grantee
management stated that the grantee did not operate under an Accounting Manual
for fiscal year 200712008 which includes the period of our review. Without
complete documentation of the grantee's control system, we could not fully
evaluate whether the internal controls were properly designed and functioning as
intended.


                            OVERALL EVALUATION

Because an Accounting Manual was not in place, the grantee's system of internal
control could not be assessed to determine if said system was adequate to protect
the organization's assets or ensure that transactions were properly recorded. As
such, we could not determine if adequate internal controls were in place and
working as designed to prevent the use of grant funds to purchase alcohol or incur
late fees as identified by GAO. Without the availability of the grantee's Accounting
Manual, we were unable to fully assess the operation of controls over employee
benefits and reimbursements, disbursements, and internal management
reportinglbudgeting.

Grantee disbursements tested were generally supported by the documentation
provided; however, we did note five instances where disbursement documentation
was not on file or not complete. In addition, we were unable to determine whether
some of the disbursements tested were allowable and properly allocated to LSC
funds and we are questioning the costs for several disbursements.

Internal controls over the client intake process in Escondido were operating in the
manner expected to ensure compliance with the LSC Act and LSC regulations.


                              RESULTS OF AUDIT

INTERNAL CONTROLS OVER FINANCIAL MATTERS

The grantee's system of internal control over financial matters was not fully
documented and could not be evaluated. As such, at the time of our review, there
was no assurance that controls were in place and working as desi\gned to protect
resources and properly record transactions.

Grantee management informed us during our visit that they did not have a current
Accounting Manual and that a new manual was being prepared. Management
indicated that although an Accounting Manual was in effect at one time, it had
become outdated and was no longer used. The Executive Director indicated that
no Accounting Manual was in place for fiscal year 200712008 and that the grantee
had a draft Accounting Manual, but it did not reflect current policies. The
Executive Director further indicated that the grantee's Board of Directors approved
the draft manual and that it would be finalized shortly.

In establishing an adequate internal control structure, each grantee must develop
a written accounting manual that describes the specific procedures to be followed
by the grantee in complying with the Fundamental Criteria of an Accounting and
Financial Reporting System contained in LSC's Accounting Manual. While some
policies were provided in memorandum form, they were not a sufficient substitute
for an Accounting Manual.
       Recommendation 1 -- The Executive Director should revise and update the
       grantee's Accounting Manual as quickly as possible to incorporate written
       policies and procedures describing the grantee's current accounting and
       fiscal practices and adhere to those practices.

       Grantee Manaqement Comments. The Executive Director stated:

           California Indian Legal Services has taken strong and
           deliberate steps to address this recommendation. A full time
           Controller with thirty years of nonprofit experience was
           employed by CILS on January 5, 2009. This individual has
           direct and specific experience in writing and updating
           Accounting Policies and Procedures for similar nonprofit
           corporations. CILS senior administrative staff has met to set
           priorities, assignments, and a timeline to complete this task by
           March 31, 2009. The current draft Table of Contents for CILS'
           updated Financial Policies and Procedures is attached as
           Exhibit A.

       Evaluation of Grantee Management Comments. Grantee management's
       planned actions should address the issues raised in this finding. However,
       since the actions are not complete, this finding is considered open.


FOLLOW-UP ON GAO CONCERNS

GAO identified internal control weaknesses at this grantee dealing with the use of
grant funds for alcohol purchases and late fees.

Our testing of disbursements did not disclose any specific payments using LSC
funds made by the grantee for alcohol purchases or for late fees. Late fees were
incurred by the grantee and initially charged to LSC funds; however, these fees
were identified by the grantee and re-allocated to non-LSC funds before our on-
site visit. The controller stated that the late fee activity during 2007 and 2008 were
probably a result of grantee staff not paying attention to due dates.

However, because the grantee did not have an Accounting Manual fully
documenting the system of internal controls, we could not determine if adequate
internal controls were in place and operating as designed to prevent the future use
of grant funds to purchase alcohol or incur late fees as identified by GAO.

      Recommendation 2 -- The Executive Director should ensure that the new
      Accounting Manual includes specific controls to preclude the use of LSC
      funds for alcohol purchases and the payment of late fees and ensure that
      no LSC funds are used for these purposes.
      Grantee Manaqement Comments. The Executive Director stated:

         During the OIG Team visit in May 2008, CILS provided copies of
         our Expense Reimbursement Policy, prohibiting reimbursement
         for alcohol purchases and our Late Fees and Finance Charges
         Allocation Policy which ensures that such fees and charges are
         not charged to LSC or other restricted grants. See attached as
         Exhibits B and C. CILS, as stated above, is committed to
         expeditiously completing our Accounting Manual and will include
         the herein mentioned policies within the manual.

      Evaluation of Grantee Manasement Comments. Grantee management's
      planned actions should address the issues raised in this finding. However,
      since the actions are not complete, this finding is considered open.


DISBURSEMENTS AND SUPPORTING DOCUMENTATION

We judgmentally selected and reviewed 84 disbursements totaling $242,698
during the period January 1,2007 through May 13,2008. Except as noted below,
the disbursements were adequately supported by the documentation provided.
Nevertheless, we were unable to determine whether all the disbursements tested
were allowable and properly allocated to LSC funds because we were unable to
determine if the allocation system was reasonable and implemented as designed.
The grantee had not fully documented the allocation process and could not
provide an accurate description of the allocation process during our review. As
stated above, the grantee did not have an Accounting Manual documenting its
system of internal controls so we were unable to review the grantee's written
policies and procedures and incorporate these into our testing. Consequently, we
were only able to review the disbursements for reasonableness.

      Supporting Documentation

In five instances, documentation supporting disbursements was not on file or not
complete. We identified three instances totaling $1800 involving the same vendor
where adequate supporting documentation was not contained in the vendor file.
Scanned copies of the supporting documentation were subsequently provided by
the grantee upon our inquiry. However, while the scanned documents did support
the disbursements, none of the three were annotated as approved for payment.

In addition, we identified two instances where the grantee made payments to the
same staff member and did not provide adequate documentation to support the
payments. The combined gross amount (including withholding) totaled $23,833.09
and was paid by two separate checks on the same day. These payments were
recorded to a shared overhead account that is allocated to all funding sources.
According to documents received from the grantee, LSC funds are assigned
approximately 67% of all expenses charged to the shared overhead account. We
could not determine why these grant funds were expended and therefore these
expenditures may have been improperly allocated to LSC grant funds.
Consequently, we consider the amount allocated to LSC funds to be a questioned
cost within the meaning of 45 CFR § Part 1630, and will refer this issue to LSC for
review in accordance with 45 CFR § 1630.7.

      Recommendation 3 - The Executive Director should ensure that adequate
      supporting documentation is maintained on file to support all disbursements
      and allocations to LSC funds.

      Grantee Manaqement Comments. The Executive Director disagreed with
      the questioned cost and stated:

         CILS' Disbursement Policy (to be named A-400 in the new
         Accounting Manual) ensures that adequate supporting
         documentation is maintained on file to support all
         disbursements. Disbursements are reviewed by the AP Clerk
         for completeness prior to submittal to the Controller. The
         Controller also reviews the documentation for completeness
         prior to cost coding and approval for payment. Allocations to
         LSC funds are done on an annual basis in keeping with ClLS
         Allocation Policy (to be named A-601 in the new Accounting
         Manual) which requires review and approval by the Controller,
         Director of Administration, and Executive Director.

         Regarding the three instances totaling $1800 for the same
         vendor, we believe that these expenses were properly
         approved. As explained in our cover letter, ClLS went through
         major transitions, including moving of offices, files and staff,
         therefore, there were honest mistakes made. In this case, it is
         the unfortunate case that the approved invoices were
         misplaced. However, the practice and policy had been and is
         that this and all vendor invoices are approved before payment.
         Moving forward, ClLS has settled into our new Principal office
         and with the new Controller we will be certain to minimize any
         such issues in the future.

         Regarding the two payments made to the same staff member.
         On December 15, 2007 two checks totaling $23,833.09 were
         paid to a staff member per the ClLS salary incentive (also
         known as "Flexible Compensation") policy for staff attorneys.
         The policy is a written document that utilizes a set formula to
         determine the incentive to be disbursed. Incentives are paid
         once each fiscal year in November andlor December,
         respectively. The spreadsheet detailing the specific calculations
   was not attached to the check stub in the ClLS vendor file but
   was available. It is unclear to ClLS what documents show 67%
   of this incentive payment being charged to LSC. A review of the
   master allocation spreadsheet for fiscal year 2007-08, in which
   the incentive payments were made, documents that LSC's
   share of both Attorney Salaries and Total ClLS expenses were
   51 percent. We therefore do not believe these payments to be
   questioned costs and would request that the OIG Team review
   such cost with ClLS management if necessary.

Evaluation of Grantee Manaqement Comments. Grantee management's
planned actions in response to our recommendation should address the
issues raised in this finding. However, since the actions are not complete,
this finding is considered open.

In regard to the questioned cost, the flexible compensation payments are a
result of the billable hours program that the grantee operates. The
payments that were identified in this finding were expensed to a shared
expense account that is allocated to several grantees, including LSC. The
OIG believes that since the payments are a result of the billable hours
program, LSC should not be charged for any amount of the flexible
compensation payments. Therefore, we consider all flexible compensation
payments that were charged in part to the LSC grant as questioned costs.
We will refer the specific charges identified in this finding, as well as all
other flexible compensation payments that have come to our attention, to
LSC management as questioned costs.

As to the two payments made to the same staff member, while we were on-
site grantee management represented these payments as being
compensatory time payments. We requested that grantee management
provide documentation to substantiate the disbursements and after our visit,
management forwarded us an excel spreadsheet containing leave accrual
calculations. We reviewed the grantee compensatory time accrual records
and the compensatory time policy and concluded that the documentation
provided by grantee management did not support the payments. Also,
grantee management did not at any time provide us a copy of the salary
incentive policy. We did however receive and review a Flexible
Compensation Advance Request form that states flexible compensation
was in reference to amounts that were billed to clients. Because charges
relating to billing clients may not be charged to LSC funds, we conclude that
any portion of these payments that were allocated to LSC are questioned
costs and will be referred to LSC management for further review.
      Coding Errors

We noted eight instances where disbursements were not charged to the general
ledger account as coded on the payment voucher. In all instances, these errors
resulted in disbursements being wholly allocated to LSC funds even though they
were coded to a shared account. As a result, expenses were not allocated to LSC
funds in a fair and equitable manner, resulting in LSC funds being directly
allocated $1,605 that had been indicated as a shared expense among the funding
sources. We consider this amount to be a questioned cost within the meaning of
Part 1630, and we will refer these costs to LSC for review in accordance with
45 CFR § 1630.7.

      Recommendation 4 - The Executive Director should develop controls to
      ensure that payment vouchers are allocated to the general ledger as
      approved and coded on the invoice. These controls should require periodic
      reviews of the general ledger for errors and require that the necessary
      corrections are made.

      Grantee Management Comments. The Executive Director stated:

         Controls to ensure that payment vouchers are allocated to the
         general ledger as approved and coded are included in ClLS
         Disbursement Policy (to be named A-400 in our new Accounting
         Manual). Coded vouchers are entered into the accounting
         system by the Controller. As part of the process to print checks,
         the AP Clerk reviews the written coding against the accounting
         system as part of the check printing process. In addition, once
         each month, the Controller prints out a complete General
         Ledger Detail Report and reviews each entry for accuracy,
         making corrections as needed.

         Specific to the discussion about the eight instances of coding
         errors, it should be noted that those expenses were all related to
         the tribal court conference. As explained to the OIG Team and
         now throughout this response, the charging of expenses to
         "Category 11" is not exclusively to LSC. The Category 11
         description is used to capture time and expenses related to LSC
         and the State Bar of California, Legal Services Trust Fund,
         which we receive our IOLTA and Equal Access Fund (EAF)
         grants from. So there are three grants that share the costs of
         the Category 11 time and expenses. Because the LSC grant
         amount exceeds the combined amount of the IOLTA and EAF
         by at least four times, it is logical that LSC would be charged a
         larger portion during the allocation process. While it is true that
         the coding errors were made, ultimately, all of these expenses
         were entered correctly as Category 11 expenses, which are
          shared between the three above mentioned grants. Based on
          this explanation, ClLS believes that these coding errors do not
          rise to the level of questioned costs, as the allocation to LSC
          dollars was reasonable and necessary.

      Evaluation of Grantee Mana~ementComments. Grantee management's
      planned actions in response to our recommendation should address the
      issues raised in this finding. However, since the actions are not complete,
      this finding is considered open.

      During our audit, management was unable to explain how the
      organization's system to allocate costs operated and we were not informed
      how the costs recorded as "Category 11" were allocated. In September
      2008, grantee management finally provided us with a document entitled
      "California Indian Legal Services Allocation Methodology." The only
      mention of "subsets" of "Category 11" was for direct salaries "...which are
      used to track specific types of cases and project activities.. .." There was no
      description to suggest it was used to capture time and expenses for three
      grants. In the monthly allocation section of the Allocation Methodology,
      there is no mention of how "Category 11" is allocated. The only specific
      category mentioned in the monthly allocation paragraph is "Category 80"
      which is shared expenses and there is no methodology mentioned on how
      to allocate non-labor direct expenses recorded as "Category 11". During
      our on-site fieldwork, grantee management represented to us that direct
      expenses for LSC, such as those identified in this finding were recorded in
      "Category II". If Category 11 is allocated in some manner, then there is
      no methodology to capture direct costs identified specifically with each
      grant.

      Furthermore, in the general journal accounts provided to us by grantee
      management, there were no subaccounts or other identifying data that
      would indicate that anything other than LSC direct costs were included in
      Category 11. We continue to question these costs.


      Tribal Court ConferenceIContractor Payments

A good financial management system is designed to prevent the incurrence of
unreasonable or unnecessary expenses such as penalties or late fees. Under
LSC regulation Part 1630, costs may be questioned if they are not reasonable and
necessary for the performance of the grant. A cost is considered reasonable if,
among other factors, "...in its nature or amount, it does not exceed that which
would be incurred by a prudent person under the same or similar circumstances..."
45 CFR § 1630.3(b).
In 2007, the grantee sponsored a Tribal Court Conference. Grantee management
indicated that the cost of the conference was to be shared among several funding
sources. However, our review of the accounting records and the hotel bills
showed that the total cost for rooms, food, and conference facilities, amounting to
$39,798, was charged only to LSC funds. In addition, the grantee incurred $6,384
in charges for unused rooms for which it had contracted. Finally, the grantee paid
for rooms for non-staff members.

Because the total cost for rooms, food and conference facilities was charged to
LSC funds and may not have been properly allocated among funding sources;
because of the penalty for unused rooms; and because rooms were paid for non-
staff members, we question the full amount of conference related costs charged to
LSC funds. In order to charge any portion of the conference cost to LSC funds,
the grantee should demonstrate what proportion is reasonable and necessary.

We consider the conference expenditures to be questioned costs within the
meaning of Part 1630, and will refer these costs to LSC for review in accordance
with 45 CFR § 1630.7.

      Recommendation 5 - The Executive Director should establish procedures
      to ensure that costs are fairly allocated and that the rationale is fully
      documented for major expenditures. These procedures should include a
      requirement to validate that expenditures are allocated in the manner
      intended.

      Grantee Manaqement Comments. The Executive Director stated:

         ClLS did document the Allocation Methodology process in
         writing and provided it to the OIG Team...by email on
         September 4, 2008. This process has been in place for many
         years and is designed to ensure that all costs are allocated fairly
         and adequately and that appropriate back up documentation is
         attached. As a result of these recommendations, ClLS
         management will include within our new Accounting Manual, an
         updated Cost Allocation Policy that ensures costs are fairly
         allocated, fully documented and a requirement to validate that
         expenditures are allocated in the manner intended.

         Specific to the Tribal CourtIContractor Payments discussion,
         ClLS disagrees with the calculations and conclusion reached by
         the OIG Team that the expenses charged to LSC are a
         questioned cost.
         Our review of the Pechanga Resort and Casino invoice showed
         that the total charges for the conference were $61,570 of which
         LSC was charged $47,859 (78%) and that our unrestricted
   funds, Category 20 was charged $13,711 (22%). Therefore,
   LSC was not charged for the entirety of the conference and the
   expenses were shared as represented by CILS.
   The issues of the charges for unused rooms and the rooms paid
   by CILS for non-staff members are easily explainable and
   certainly reasonable and necessary. The charges for the
   unused rooms were due to the fact that it is not possible to
   predict with certainty how many rooms will be needed for a
   statewide conference event. The hotel requires a guarantee
   and we made our best estimate, unfortunately, some last minute
   cancellations contributed to the amount of rooms unused. This
   is expected to happen when putting on this size of an event,
   especially for the first time. Regarding CILS paying for hotel
   rooms for non-staff members. [sic] These persons were
   presenters at the conference. The presenters agreed to be a
   part of our conference for no stipend or honorarium, so they
   were given hotel rooms and travel reimbursement if they
   requested. In fact, some presenters did not even seek
   reimbursement from CILS for their travel expenses. Surely
   CILS cannot be expected to put on a high quality and
   substantive conference and expect to get reputable presenters,
   who are experts in their fields, and not offer to reimburse for the
   most basic of expenses. CILS reiterates that the costs charged
   to LSC for the conference were reasonable and necessary for
   the successful advancement of our mission to serve the
   California Indian community.

Evaluation of Grantee ~anaaementComments. Grantee management's
planned actions in response to our recommendation should address the
issues raised in this finding. However, since the actions are not complete,
this finding is considered open.

In addition, grantee management's comments are insufficient to establish
the appropriateness of charging the costs for rooms, food and conference
facilities only to LSC funds. Grantee management, for example, did not
provide any information on how much of the total cost for rooms, food, and
conference facilities were allocated to grants other than LSC or provide any
information on the methodology used to allocate conference costs.
Additionally, of the $39,798 for identified rooms, food and conference
facilities, $6,384 (31.6%) of the $20,160 in room charges was paid for
unused rooms and may not meet the reasonable and necessary criteria set
forth in 45 CFR part 1630. Grantee management is correct in that it is not
possible to predict with certainty how many rooms will be needed for a
statewide conference event. The contract with the resort took this into
consideration by requiring payment for unused rooms only if less than 80%
      of the room nights contracted for were used. Ultimately, the grantee used
      only 164 (54.6%) of the 300 room nights contracted for. We also question
      the amount associated with the amount paid for rooms for non-staff
      members. Therefore, the cost for rooms, food and conference facilities
      identified in the finding will be forwarded to LSC management as a
      questioned cost.

      Finally, we reiterate that during our audit fieldwork in May 2008, grantee
      management was unable to explain, or provide any documents describing,
      how the organization's system to allocate costs operated. In September
      2008, grantee management provided a document entitled "California Indian
      Legal Services Allocation Methodology." However, this document did not
      fully describe how the allocation system operated.


      Allocation of Costs for Contractor Services

A review of the supporting documentation for three payments to a contractor
disclosed that the payments may not have been properly allocated. The
contractor provided itemized bills by line item and the exact amount billed for each
funding source could be determined. Rather than allocating the exact amounts to
each grant, the total bill was charged to the shared allocation account of which
LSC funds receive the largest portion. By charging the entire bill to the shared
allocation account, LSC funds were charged a larger portion of the contractor's
cost than reasonable or necessary. Consequently, we consider the costs for bills
from the contractor for 2007 and 2008, totaling $14,018.50, to be questioned costs
within the meaning of Part 1630, and will refer these costs to LSC for review in
accordance with 45 CFR § 1630.7.

      Recommendation 6 - The Executive Director should establish controls to
      ensure that identifiable direct costs are allocated to the applicable funding
      source.

      Grantee Manaqement Comments. The Executive Director stated:

           It is the policy and practice of CILS to allocate expenditures
           made for accounting support. While some invoices from the
         - accounting contractor include descriptions of work performed,
           this is not always the case and sometimes descriptions are
           incomplete. To ensure consistency in the treatment of this
           particular expense, the ClLS allocation procedure is applied
           based on CILS' experience in assigning work to the contractor.
           Additionally, as explained elsewhere in this response, LSC is
           often charged a larger portion for Category 11 expenses
           because they are our largest grantee of the three funds included
          in Category 11. Accordingly, ClLS performs much more
          administrative and program work under our LSC grant.

          Therefore, it is CILS' position that the way in which these
          expenses were allocated to our shared account is reasonable
          and necessary and that these expenses are not questioned
          costs. We again invite the OIG Team to engage in dialogue
          with ClLS if further clarification is needed.

      Evaluation of Grantee Manaaement Comments. Management comments
      do not address the specific issue raised in the finding. Therefore, this
      disagreement, along with the questioned costs, will be referred to LSC
      management for review and action.

      We note that 45 CFR § 1630.3(d) states that "Direct costs are those that
      can be identified specifically with a particular final cost objective, i.e., a
      particular grant award, project, service, or other direct activity of an
      organization. Costs identified specifically with grant awards are direct costs
      of the awards and are to be assigned directly thereto." The costs identified
      in this finding were specifically identified as work done in support of LSC, as
      well as specifically for work for other organizations. Therefore, the costs
      should have been assigned as direct costs since they could be identified
      with a particular grant award. Rather than assigning the costs as direct
      costs, they were assigned to the shared Category of 80 and allocated
      among several grants. As a result, a larger portion of the amount was
      charged to the LSC grant than would have been if only the expenses that
      were identified for LSC were recorded as a direct cost.


      Cost Allocation Process

The grantee had not fully documented the cost allocation process and did not
provide an accurate description of the allocation process while we were on-site.
The Executive Director and the Financial Officer stated that they could not explain
the allocation process and that the allocation process was not documented. In
addition, the grantee did not have an Accounting Manual, where one normally
would expect to find a description of the allocation system.

Subsequent to our visit, the Executive Director provided a written description of the
process. However, because the on-site portion of our audit had been completed,
we were not able to test the process to determine if the controls were adequate
and if the process had been properly implemented. We did perform a limited
review of the allocation system when provided the written description of the
system. Nevertheless, we could not fully test the system, the accuracy of the
underlying data, or the generalfapplication controls of the computer system used
to accumulate and process the detailed, underlying data.
As a result, we were unable to determine if the allocation system was reasonable
and implemented as designed. Unless the allocation process is fully and
accurately documented and applied, there is no assurance that it is operating as
intended or that the factors used are current and fair to all sources of funding.

      Recommendation 7 - The Executive Director should fully document the
      cost allocation process as part of its Accounting Manual. The process
      should include a requirement to review the factors used to allocate shared
      costs to ensure that the allocations are fair and in accordance with the
      requirements of the various funding sources.

      Grantee Manasement Comments. The Executive Director stated:

         The written Allocation Methodology process (attached here as
         Exhibit 0)that was provided to LSC will be further developed
         and then incorporated in CILS' Financial Policies and
         Procedures as Policy A-601.

         Before CILS responds to the specific recommendation above, it
         must be noted that the statements made on page 7 of the "Draft
         Report" under "Cost Allocation Process" are not accurate. The
         statement "The Executive Director and the Financial Officer
         stated that they could not explain the allocation process and that
         the allocation process was not documented" must be clarified.

         As the Executive Director, I explained that I had just begun in
         my position as ED in October of 2007 and was still getting
         acquainted with the financial policies and procedures of CILS, in
         addition to the enormity of other duties required by the ED. I
         also explained that CILS had just brought on board, only two
         months before the OIG visit, a part-time CFO. At no time did I
         say I could not explain the allocation process, but expressed
         that the process could be more thoroughly explained by our
         Contract Bookkeeper and Director of Administration because
         they had both been working in this area for a number of years.
         While I cannot speak to the accuracy of the statements made by
         our former CFO, she was very new to the position and had not
         yet grasped the workings of our financial systems and therefore
         it is very likely that she could not formally articulate the process.
         That being said, CILS did document the Allocation Methodology
         process and provided it .... via email on September 4, 2008, as
         noted above. Again, as noted in our cover letter, if any
         representative of the OIG would have contacted CILS for further
         discussion or clarification on the cost allocation process, we
         could have worked to clarify any confusion. Of course CILS
         management would be more than happy to sit down and
          discuss our cost allocation methodology process at any time so
          that a full and adequate understanding is had by OIG.

       Evaluation of Grantee Manaqement Comments. Grantee management's
       planned actions in response to our recommendation should address the
       issues raised in this finding. However, since the actions are not complete,
       this finding is considered open.

       During our on-site fieldwork, grantee management did not explain the
       allocation process. While the Executive Director provided a description of
       some of the categories that were used, the Director did not describe how
       the system operated. Also, we specifically asked during our fieldwork in
       May 2008 and in emails that were sent to the Executive Director subsequent
       to our visit, for any documentation describing the allocation system. We
       were not provided any documentation until September 2008. The
       documentation that was eventually provided was not a full description of
       how the system operates. For example, based on the information provided
       in September and our interviews while on-site, it appears that the allocation
       process obtains information from two different computer programs, neither
       of which is specifically identified in the documentation provided. As another
       example, grantee management comments indicate that costs collected in
       "Category 11" are allocated; however, the document received in September
       2008, lacks any reference to how this category was allocated.


INTERNAL CONTROL REVIEW OF OTHER SELECTED AREAS

Our review of the internal controls over the client intake process in Escondido
revealed that the controls are operating in a manner expected to ensure
compliance with the LSC Act and LSC regulations. However, without an
Accounting Manual, we were unable to adequately assess the operation of
controls over employee benefits and reimbursements, disbursements and internal
management reportinglbudgeting.

We did note the following additional areas where internal controls could be
strengthened:


       Strategic Plan

A good internal control environment includes a strategic plan with benchmarks. In
establishing an adequate internal control structure, each grantee should address
risk assessment including the establishment of consistent agency goals and
objectives at both the entity level and at the mission level. Strategic plans support
the entity-wide objectives and address resource allocations and priorities.
The grantee did not have in place a strategic plan but planned to begin working on
one. The Executive Director informed us that she planned to include this item on
the agenda in an upcoming board meeting. We were advised that the grantee's
Board has for the past 2'12 years focused on restructuring the program.

      Recommendation 8 -- The Executive Director should complete the
      grantee's strategic plan and formalize a process for achieving benchmarks.

      Grantee Manaqement Comments. The Executive Director stated in part:

          CILS' Board of Directors and the Executive Director have
          discussed the need to develop and implement a comprehensive
          Strategic Plan.     The Board has appointed two Co-
          Chairpersons.. .who will oversee the development of the
          Strategic Plan Committee. The formal development of the
          Strategic Plan Committee will take place at the March 7, 2009
          Board meeting.

      The full text of grantee management comments for this finding can be found
      at Appendix I.

      Evaluation of Grantee Management Comments. Grantee management's
      planned actions should address the issues raised in this finding. However,
      since the actions are not complete, this finding is considered open.


      Cost Center Budgeting

We were unable to fully assess the controls over budgeting and management
reporting because the grantee did not have an Accounting Manual in effect during
the period of review. However, based on the budget reports and Board minutes
reviewed, the information provided would satisfy the overall requirements for
budget information and monthly reporting, with one exception. The grantee does
not prepare budgets or report on expenditures by geographical office. Although
the offices are small, consisting of only a 2 or 3 person staff, establishing a cost
center for each office would provide more precise information to management.

      Re.commendation 9 - The Executive Director should consider the cost
      benefits, and if economically feasible, implement budget and expenditure
      reporting by office.

      Grantee Management Comments. The Executive Director stated:

          CILS appreciates that this recommendation would yield valuable
          information for management purposes and intends to study it to
          determine if it would be economically feasible.
Evaluation of Grantee Manaaement Comments. Grantee management's
actions address the issues raised in this finding. This finding is considered
closed.
                                                                                           APPENDIX I

           CALIFORNIA INDIAN LEGAL SERVICES 1
                              BISHOP*ESCONDIDO*EUREKA*SACRAMENTO
                                          Principal Office
                                                       - -
                   609 S. Escondido Blvd., Escondido, CA 92025 Phone: 760.746.8941
                                       www.calindian.org contactClLS@calindian.orq
                                                                                     - Fax: 760.746.1815
                                    Devon Lee Lomayesva, Executive Director



                                        January 29,2009

Via Email and U.S. Mail

Ronald D. Merryman,
Assistant Inspector General for Audit
Legal Services Corporation
Office of the Inspector General
3333 K Street, NW 3* Floor
Washington, D.C. 20007-3522

       Re: Response to Draft Report

Dear Mr. Merryman:

        Please find enclosed California Indian Legal Services' response to the draft report on the
results of the OIG's audit on Selected Internal Controls at CILS, dated December 3, 2008. Our
responses in some cases also include relevant attachments for your convenience.

       Due to the enormity of transition and challenges that CILS has experienced over the past
few years, it would be an injustice for the organization if I were not to share with you some of
these happenings and how they have impacted the internal workings of CILS. Please see the
fo110wing.

        In 2005, CILS' long time Executive Director left his position and an Interim ED was
brought in. The search for a new ED took almost two years and that is when I came on board in
October 2007. At the time I came in, staffing levels were at a minimum and plans were in the
works for office relocation. In March of 2008, the principal office in Oakland was closed and
then relocated to Escondido. A new field office was then opened in Sacramento in an effort to
better serve our client community in that service territory. Also during March 2008 a new
position, a part-time CFO was brought on Board. This new management team was immediately
presented with the challenge of the OIG visit in addition to familiarizing ourselves with the
workings of the program and other immediate priorities.

        The drafi report in many portions discusses the inability of the ED or CFO to adequately
explain policies and procedures. While there were areas that management was not yet proficient
in, we are confident that CILS' overall management and internal controls were and remain to be
sound. CILS has a forty year history of exceptional service to our client community which
speaks to our success and commitment to the provision of high caliber legal services to the
underserved California Indian population.

        Finally, CILS was given a list of follow up items to provide to the OIG Team. We
complied with all of those requests. However, at no time did any representative of the OIG
Team contact CILS for fbrther discussion or clarification on any of those items now identified
that could have been easily explained. Based on my phone conversations with Anthony
Ramirez, CILS will now be given the opportunity to provide further clarification and discussion
regarding the responses we have provided herein before the OIG Team decides whether or not to
forward any issues to LSC management and prior to finalization of the report. Mr. Ramirez also
assured me that the draft report is confidential and will not be shared with any entity outside of
the OIG until it is finalized.

       CILS welcomes the opportunity to provide any further information we can in order to
adequately respond to these recommendations. Please feel fi-ee to contact me at 760-746-8941,
ext. 119 or via email at dloma~esva@calindian.or~.
                                                 We look forward to hearing fiom you soon.

                                      Sincerely,

                                 -1FORNIA            INDIAN LEGAL SERVICES



                                     Devon Lee Lomayesva
                                     Executive Director
                                                                     v
Enc: Exhibits A - D
cc: Anthony M. Ramirez via Email
Recommendation 1 - The Executive Director should revise and update the grantee's
Accounting Manual as quickly as possible to incorporate written policies and
procedures describing the grantee's current accounting and fiscal practices and
adhere to those practices.

California Indian Legal Services has taken strong and deliberate steps to address this
recommendation. A full time Controller with thirty years of nonprofit experience was
employed by CILS on January 5,2009. This individual has direct and specific experience
in writing and updating Accounting Policies and Procedures for similar nonprofit
corporations. CILS senior administrative staff has met to set priorities, assignments, and a
timeline to complete this task by March 3 1,2009. The current draft Table of Contents for
CILS7updated Financial Policies and Procedures is attached as Exhibit A.

Recommendation 2 - The Executive Director should ensure that the new
Accounting Manual includes specific controls to preclude the use of LSC funds for
alcohol purchases and payment of late fees and ensure that no LSC funds are used
for these purposes.

During the OIG Team visit in May 2008, CILS provided copies of our Expense
Reimbursement Policy, prohibiting reimbursement for alcohol purchases and our Late
Fees and Finance Charges Allocation Policy which ensures that such fees and charges are
not charged to LSC or other restricted grants. See attached as Exhibits B and C. CILS, as
stated above, is committed to expeditiously completing our Accounting Manual and will
include the herein mentioned policies within the manual.

Recommendation 3 - The Executive Director should ensure that adequate
supporting documentation is maintained on file to support all disbursements and
allocations to LSC funds.

CILS7Disbursement Policy (to be named A-400 in the new Accounting Manual) ensures
that adequate supporting documentation is maintained on file to support all
disbursements. Disbursements are reviewed by the AP Clerk for completeness prior to
submittal to the Controller. The Controller also reviews the documentation for
completeness prior to cost coding and approval for payment. Allocations to LSC fbnds
are done on an annual basis in keeping with CILS Allocation Policy (to be named A-601
in the new Accounting Manual) which requires review and approval by the Controller,
Director of Administration, and Executive Director.

Regarding the three instances totaling $1800 for the same vendor, we believe that these
expenses were properly approved. As explained in our cover letter, CILS went through
major transitions, including moving of offices, files and staff, therefore, there were honest
mistakes made. In this case, it is the unfortunate case that the approved invoices were
misplaced. However, the practice and policy had been and is that this and all vendor
invoices are approved before payment. Moving forward, CILS has settled into our new
Principal office and with the new Controller we will be certain to minimize any such
issues in the future.

Regarding the two payments made to the same staff member. On December 15,2007
two checks totaling $23,833.09 were paid to a staff member per the CILS salary incentive
(also known as "Flexible Compensation") policy for staff attorneys. The policy is a
written document that utilizes a set formula to determine the incentive to be disbursed.
Incentives are paid once each fiscal year in November andfor December, respectively.
The spreadsheet detailing the specific calculations was not attached to the check stub in
the CILS vendor file but was available. It is unclear to CILS what documents show 67%
of this incentive payment being charged to LSC. A review of the master allocation
spreadsheet for fiscal year 2007-08, in which the incentive payments were made,
documents that LSC's share of both Attorney Salaries and Total CILS expenses were
5 1%. We therefore do not believe these payments to be questioned costs and would
request that the OIG Team review such cost with CILS management if necessary.


Recommendation 4 - The Executive Director should develop controls to ensure that
payment vouchers are allocated to the general ledger as approved and coded on the
invoice. These controls should require periodic reviews of the general ledger for
errors and require that the necessary corrections are made.

Controls to ensure that payment vouchers are allocated to the general ledger as approved
and coded are included in CILS Disbursement Policy (to be named A-400 in our new
Accounting Manual). Coded vouchers are entered into the accounting system by the
Controller. As part of the process to print checks, the AP Clerk reviews the written
coding against the accounting system as part of the check printing process. In addition,
once each month, the Controller prints out a complete General Ledger Detail Report and
reviews each entry for accuracy, making corrections as needed.

Specific to the discussion about the eight instances of coding errors, it should be noted
that those expenses were all related to the tribal court conference. As explained to the
OIG Team and now throughout this response, the charging of expenses to "Category 11"
is not exclusively to LSC. The Category 11 description is used to capture time and
expenses related to LSC and the State Bar of California, Legal Services Trust Fund,
which we receive our IOLTA and Equal Access Fund (EAF) grants from. So there are
three grants that share the costs of the Category 11 time and expenses. Because the LSC
grant amount exceeds the combined amount of the IOLTA and EAF by at least four
times, it is logical that LSC would be charged a larger portion during the allocation
process. While it is true that the coding errors were made, ultimately, all of these
expenses were entered correctly as Category 11 expenses, which are shared between the
three above mentioned grants. Based on this explanation, CILS believes that these
coding errors do not rise to the level of questioned costs, as the allocation to LSC dollars
was reasonable and necessary.
Recommendation 5 - The Executive Director should establish procedures to ensure
that costs are fairly allocated and that the rationale is fully documented for major
expenditures. These procedures should include a requirement to validate that
expenditures are allocated in the manner intended.

CILS did document the Allocation Methodology process in writing and provided it to the
OIG Team, via Anthony Ramirez, by email on September 4,2008. This process has been
in place for many years and is designed to ensure that all costs are allocated fairly and
adequately and that appropriate back up documentation is attached. As a result of these
recommendations, CILS management will include within our new Accounting Manual,
an updated Cost Allocation Policy that ensures costs are fairly allocated, fully
documented and a requirement to validate that expenditures are allocated in the manner
intended.

Specific to the Tribal Court/Contractor Payments discussion, CILS disagrees with the
calculations and conclusion reached by the OIG Team that the expenses charged to LSC
are a questioned cost.

Our review of the Pechanga Resort and Casino invoice showed that the total charges for
the conference were $61,570 of which LSC was charged $47,859 (78%) and that our
unrestricted funds, Category 20 was charged $13,711 (22%). Therefore, LSC was not
charged for the entirety of the conference and the expenses were shared as represented by
CILS.

The issues of the charges for unused rooms and the rooms paid by CILS for non-staff
members are easily explainable and certainly reasonable and necessary. The charges for
the unused rooms were due to the fact that it is not possible to predict with certainty how
many rooms will be needed for a statewide conference event. The hotel requires a
guarantee and we made our best estimate, unfortunately, some last minute cancellations
contributed to the amount of rooms unused. This is expected to happen when putting on
this size of an event, especially for the first time. Regarding CILS paying for hotel rooms
for non-staff members. .Thesepersons were presenters at the conference. The presenters
agreed to be a part of our conference for no stipend or honorarium, so they were given
hotel rooms and travel reimbursement if they requested. In fact, some presenters did not
even seek reimbursement fiom CILS for their travel expenses. Surely CILS cannot be
expected to put on a high quality and substantive conference and expect to get reputable
presenters, who are experts in their fields, and not offer to reimburse for the most basic of
expenses. CILS reiterates that the costs charged to LSC for the conference were
reasonable and necessary for the successful advancement of our mission to serve the
California Indian community.

Recommendation 6 - The Executive Director should establish controls to ensure
that identifiable direct costs are allocated to the applicable funding source.

It is the policy and practice of CILS to allocate expenditures made for accounting
support. While some invoices from the accounting contractor include descriptions of
work performed, this is not always the case and sometimes descriptions are incomplete.
To ensure consistency in the treatment of this particular expense, the CILS allocation
procedure is applied based on CILS' experience in assigning work to the contractor.

Additionally, as explained elsewhere in this response, LSC is often charged a larger
portion for Category 11 expenses because they are our largest grantee of the three funds
included in Category 11. Accordingly, CILS performs much more administrative and
program work under our LSC grant.

Therefore, it is CILS' position that the way in which these expenses were allocated to our
shared account is reasonabIe and necessary and that these expenses are not questioned
costs. We again invite the OIG Team to engage in dialogue with CILS if further
clarification is needed.

Recommendation 7 - The Executive Director should fully document the cost
allocation process as part of its Accounting Manual. The process should include a
requirement to review the factors used to allocate shared costs to ensure that the
allocations are fair and in accordance with the requirements of the various funding
sources.

The written Allocation Methodology process (attached here as Exhibit D) that was
provided to LSC will be further developed and then incorporated in CILS' Financial
Policies and Procedures as Policy A-601.

Before CILS responds to the specific recommendation above, it must be noted that the
statements made on page 7 of the "Draft Report" under "Cost Allocation Process" are not
accurate. The statement "The Executive Director and the Financial Officer stated that
they could not explain the allocation process and that the allocation process was not
documented" must be clarified.

As the Executive Director, I explained that I had just begun in my position as ED in
October of 2007 and was still getting acquainted with the financial policies and
procedures of CILS, in addition to the enormity of other duties required by the ED. I also
explained that CILS had just brought on board, only two months before the OIG visit, a
part-time CFO. At no time did I say I could not explain the allocation process, but
expressed that the process could be more thoroughly explained by our Contract
Bookkeeper and Director of Administration because they had both been working in this
area for a number of years. While I cannot speak to the accuracy of the statements made
by our former CFO, she was very new to the position and had not yet grasped the
workings of our financial systems and therefore it is very likely that she could not
formally articulate the process. That being said, CILS did document the Allocation
Methodology process and provided it to Mr. Anthony Rarnirez via email on September 4,
2008, as noted above. Again, as noted in our cover letter, if any representative of the OIG
would have contacted CILS for further discussion or clarification on the cost allocation
process, we could have worked to clarify any confusion. Of course CILS management
would be more than happy to sit down and discuss our cost allocation methodology
process at any time so that a full and adequate understanding is had by OIG.

Recommendation 8 - The Executive Director should complete the grantee's
strategic plan and formalize a process for achieving benchmarks.

CILS' Board of Directors and the Executive Director have discussed the need to develop
and implement a comprehensive Strategic Plan. The Board has appointed two Co-
Chairpersons, Patti Dixon and Molin Malicay, who will oversee the development of the
Strategic Plan Committee. The formal development of the Strategic Plan Committee will
take place at the March 7,2009 Board meeting.

Noting the above goals, the Board has in fact already began the strategic planning process
over the last three years as they faced major transitions for the organization; namely the
departure of the long-term Executive Director, an Interim ED, and now the new ED, who
has been in her position a little over one year. Changes in management and reduction in
overall staff size lead the Board to start thinking about CILS' service delivery models and
our organizational priorities. The excerpt below comes from CILS' Annual Report on
Program Priorities: 45 CFR 1620, submitted to LSC in December of 2008. This except
will provide a brief history of how the organization has addressed the restructuring
process as well as introduce our next steps for the final development of a strategic plan.

       "During 2004, at the suggestion of the Corporation, CILS conducted a
       comprehensive client needs assessment to aid the Board in setting program
       priorities. Several methodologies were used in the needs assessment: surveys
       were mailed to members of the client community; the survey was posted on our
       website so clients could complete it online; and clients were contacted via
       telephone. In addition, interviews were conducted with advocate staff and
       members of the Board of Trustees (the majority of who are representatives fiom
       the client community). The client response rate was not high enough to provide
       statistically-significantresults, but did provide some interesting anecdotal
       information to supplement the qualitative data provided by advocates and Board
       members. The results of the needs assessment were reviewed and discussed by
       the Board at our quarterly meeting on December 14,2004. Following this review,
       the Board voted to reaffirm CILS' existing substantive priorities.

       As previously reported, in 2005 we initiated a shift away from our focus in recent
       years on the expansion of brief services to low-income Indians to the
       prioritization of comprehensive statewide projects addressing core Indian Law
       issues. These projects are designed to provide a range of services in areas of
       fimdamental importance to California Indians. Projects encompass both cases and
       matters, including community education efforts, the development of substantive
       resources for internal and external use, and other focused strategies to ensure
       CILS effectively meets community needs. In 2005, four specific substantive
       areas were identified as being especially critical to the long-term health of the
       California Indian community and to the long-range effectiveness of CILS
       advocacy on behalf of low-income Native Americans: tribal justice and
       governance; fiscal development and economic self-sufficiency for low-income
       Indians; protection for Indian families; and Indian land issues. In 2007, these
       projects continue to be core to CILS' services, with services focused on several
       key issues within these priorities: tribal court development; access to I-
       CAN!/Earned Income Tax Credit for working Indian families; Indian Child
       Welfare Act cases and related matters; and community education on the American
       Indian Probate Reform Act and will-drafting for Indian individuals with trust
       lands or other trust assets. At the close of 2007, CILS also implemented two
       specific priorities for representation of financially-eligible federally-recognized
       Indian tribes in order to effectively meet the needs of this portion of CILS' client
       population: the development and implementation of tribal law and policy related
       to fundamental tribal governance projects; and the protection of Indian families
       and children related to the Indian Child Welfare Act (ICWA) and tribal law and
       policy affecting the protection of Indian families and children".

In early 2008, CILS held a two day Board Staff Retreat focused primarily on addressing
program wide priorities, as well as, project specific action items and overall client
community needs. The process of planning the retreat began with a Retreat Planning
Committee comprised of CILS Board members, management and attorney staff. The
Committee then developed a "CILS Stakeholder Survey" in order to accumulate a portion
of targeted data that would guide the agenda for the actual Board Staff Retreat. The
survey was sent to all CILS staff and Board members. A copy of the survey is attached
here for reference as Exhibit E. The surveys were then reviewed by the Committee and
the data was culminated into an overall agenda for the two and one-half day retreat. The
agenda is attached here for reference as Exhibit E.

The agenda was composed of four main parts. 1) Interaction between Board and staff, 2)
Substantive discussion of program priorities, service levels and client community needs,
3) targeted substantive meeting on specific legal issues of importance to the attorney
staft; and 4) Board reflection and discussion on the retreat experience.

At the conclusion of the retreat it was decided that management and staff would compile
the data collected during the retreat and report back to the Board. The result of these two
days was a compilation of more focused and detailed program priorities and requisite
service levels. Over the last year, Board and staff have evaluated the results of the retreat
along with our current statement of priorities. These evaluations did lead to revision of
CILS' statement of priorities to better reflect the services provided by CILS and the needs
of our client community.

As is demonstrated, much time and effort on the part of the Board and staff went into
making the Board Staff Retreat a productive and effective use of time aimed at improving
the quality and quantity of our services and most importantly to ensure we are meeting
the needs of our California tribal client community.
Recommendation 9 - The Executive Director should consider the cost benefits, and
if economically feasible, implement budget and expenditure reporting by office.

CILS appreciates that this recommendation would yield valuable information for
management purposes and intends to study it to determine if it would be economically
feasible.
           CALIFORNIA INDIAN LEGAL SERVICES
           FINANCIAL POLICIES & PROCEDURES
                      MARCH 2009


Section                   P&P#     Policy & Procedure Title

Accounting Principles              Accounting Philosophy
and Oversight                      Responsibilities
                                     Board of Directors
                                     Audit and Finance Committee
                                     Executive Director
                                     Controller
                                   Internal Controls

Financial                 A-00 1   Agency Operating Budget
Management                A-002    Audits
                          A-003    Tax Filing
                          A-004    Bonding

Cash                               Banking
                                   Investments
                                   Client Trust Account
                                   Petty Cash
                                   Corporate Credit Card
                                   Bank Reconciliations
                                   Cash Receipts
                                   Cash Transfers



Reporting &               A-200    Record Retention
Record Keeping            A-20 1   General Journal
                          A-202    General Ledger & Subsidiary Ledgers
                          A-203    Chart of Accounts
                          A-204    Departments
                          A-205    Financial Reports
                          A-206    Contract Management

Purchasing, Invoicing &   A-300    Requisition FormsPurchasing
Donations                 A-301    Donations: General, Restricted, Unrestricted
                          A-302    Invoicing (Billing)
                          A-303    Bad Debt
Cash Disbursements   Accounts Payable
                     Travel
                     Conferences & Training
                     Dues & Memberships
                     Capital Expenditures
                     Depreciation

Payroll              Pay Dates & Processing Procedures
                     Timesheets
                     Salary Advance
                     Employee Benefits
                     Compensatory Time & Overtime

Other                Inventory & Property Control
                     Cost Allocation
                     Revenue Recognition
                     Fiscal Agent

Appendices           1) Sample Monthly Financial Reports
                     2) Cash Receipts Log
                     3) Check Request Form
                     4) Travel Reimbursement Form
                     5) Training Request Form
                     6) Salary Advance Form
                     7) Client Trust Fund Log
                     8) Employee Time & Attendance Reports
                     9) List of approved check signers
           CALIFORNIA INDIAN LEGAL SERVlC
                                                            ROSA
                      BISHOP-ESCONDIDO*EUREKA*SACRAMENTO*SANTA
                                             Central Administrative Office
                   609 S. Escondido Blvd., Escondido, CA 92025 r f Phone: 760.746.8941 1 Fax: 760.746.1815
                - - - - . -- . - -- .--www.calindian.org
                                       ... - - -- .. - .  r 1 contadCILS@calindian.org


                                         MEMORANDUM
To:     All CILS Staff
From:   Devon Lee Lomayesva
Re:     Expense Reimbursement Policy
Date:   1/1/08


Please be advised that is shall be the policy of CILS that no reimbursements shall be processed
for the purchase of alcoholic beverages. There are no exceptions. If receipts are submitted that
include purchases for alcoholic beverages, the reimbursement shall be reduced by the amount of
such purchases.

If you have any questions regarding this policy, please contact me directly. Thank you for your
time and attention.
            CALIFORNIA INDIAN LEGAL SERVICES
                     BISHOP-ESCONDIDO*EUREKA.
                                           SANTA ROSA SACRAMENTO
                                          Central Administrative Office
                                                     - -
                   609 S Escond~doBlvd., Escondido, CA 92025 Phone 760.746.8941
                                     www.caltndian.org wntactCILS@cal~nd~an orq
                                                                                  - Fax 760 746 1815
                                    Devon Lee Lomayesva, Executive Director



                                       MEMORANDUM

To:     LSC Office of Inspector General Visit - May 2008 File
From:   Devon Lee Lomayesva
Re:     Late Fees and Finance Charges allocation policy
Date:   May 13,2008

Late fees are charged to account #693 - Late Fees and Finance Charges, class #20 - General
Fund (non-shared expenses). It is now our general practice to require that these types of
expenses are allocated to a non-shared account that ensures that funds from our restricted grants
are not used for such expenses.
             CALIFORNIA INDIAN LEGAL SERVICES
                       RISHO1'-ESCONDII)O.EUI<EKA*SANTA ROSA -SACMblIINTO
                                              Central Administrative Office
                                                                -                     -
                     609 S Escondido Blvd., Escond~do,CA 92025 Phone: 760.746.8941 Fax: 7617 746.1815
                                                           -
                                        www calIndian.org c~tC!LS@cal~nd!a_n,o!




                                           MEMORANDUM

l'o:    I ,SC Office of Inspector General Visit - May 2008 File
From:   Slcvori Lee Lomayesva
Re:     Late Fees and Finance Charges allocation policy
Date:   Ma\( 13.2008

Idate fees are charged to account #693 - Late Fees and Finance Charges, class fi20 - General
Fund (11on-sharedexpenses). It is now our general practice to require that these types 01'
expenses are allocated to a non-shared account that ensures that funds fi-om our restricted Z r i t n t S
are not used f o r such expenses.
           CALIFORNlA INDIAN LEGAL SERVICES
                              BISHOP-ESCONDIDO*EUREKA*SACRAMENTO
                                                   Principal Office
                                                       -
                                                            -
                   609 S. Escondido Blvd., Escondido, CA 92025 Phone: 760.746.8941
                                       www.calindian.org contadClLS@calindian.org
                                                                                     -   Fax: 760.746.1815


                         CALIFORNIA INDIAN LEGAL SERVICES
                            ALLOCATION METHODOLOGY


California llidian Lcgal Services allocates expenses based on direct and indirect (shared)
expenses.

Currently. CILS maintains thc following separately tracked income and expense categories

Category 1 1- Funds subjcct to LSC restrictions: (income & espense recording)

Category 12 - Basic Field LSC grant (for income recording)

Category 14 - Stalewide Website I.SC TIG grant #04429 (income & expense recording)

C.atcgory 16 - Indian Legal Web LSC TIG grant tC04529 (income & expense recordins)

Category 20- tribal funds not subjcct to 1,SC restrictions per regulation 1610.4(a): (incomc &:
expense recording)

Category 2A -Third party client billing (income & expense recording)

Category 30 - Fee for service work (tribal billings) (income & espense recording)

Category 3A - AlPKA practice area lor individual client wills; fee for senlice (income &
cspcnse recording)

Category SO - IMAAA direct expenses (fmding from Inyo Mono Artxa Agency on Aging)
(income & expcnsc recording)

Category 60 - Eastern Sicrra I-egal Assistance Project Expenses (LSC Basic Field grant)
(cspcnse recording)

Category 70 - IOLTA (primarily income recording)

Category 7 1 - Equal Access (primarily income recording)

Category 80 - Shared activities/expenses (LSCAOLTA permissible) (espense recording)
SALAKlES
DIRECT PAYROLL EXPENSES
Direct espenses are those expenses which are directly attributable to a particular case and/or
project or program.

Direct Salaries
Attorneys - Each altomey maintains and submits detailed time records each month. The time
records indicate hours spent on each caselproject 'and the funding code associated with the
casdproject (which corresponds to expense categories listed above). Attorneys also report timc
records on catcgory 80 hours (shared time/expense). in addition to the above listed categories,
there are also "subsets" of category 1 1 which arc used to track specific types ol'case and pro-iect
activities, e.g.. Equal Access Fund eligible activities are tracked separately.

Paralegals - same as above

Law Clerks - sarnc as above

The time allocalion -'TAWspreadsheet is updated monthly and lists cach attorncy, paralegal and
law clerk's time (hereinah referrcd to as program staff) and total hours reported for the month.
The category 80 (shared time) hows are subtractcd from each employee's total hours. The hours
for each program staff are then convcrtcd into a percentage, e.p.. total hours less category 80
hours divided by the appropriate category's hours). This percentage is applied to the attorney.
paralegal and law clerks' salaries on a line by line basis. This provides CILS with a total payroll
figure for all program staff artributablc to each category of program work.
Total hours for all program staff less the total catcgory 80 hours divided by the total of each
category's hours provide the percentage which is applied to all other shared expenses (category
80). Ihis allocation methodology logically matches program staff time with organizational
resources and expenses.

lndirect Salaries & Benelits
lndirect salaries are those salaries necessary tbr propam and organization support.

Administrative support salaries - Each administrative employee's monthly salary is also
recorded on the "TA" spreadsheet. The timc perccntage for each catcgory derived from the
progmn staffs monthly hours is applied to the total monthly administrative payroll cspcnsc.
This is considered a shared expense.

Clerical support salaries - Each clerical employee's monthly salary is also rccordcd on the "TA"
spreadsheet. The time percentage for each category derived from tile program stairs monihl\r
hours is applied to the total monthly clerical payroll expense. This is considered a shared
espense.

Payroll taws and benelits - Payroll taxes and benefits are charged to cach category based on the
time percentage derived for program staff.
Since program staff work on casedprojects within the various categories. there can be
fluctuations from month-to-month. This allocation methodology matches administrative.
clerical. payroll taxes and benefits vis-a-vis programmatic stair time.
EXPENSE CLASSIFICATIONS
As expenses are paid each month. they are coded as appropriate to each department using the
chart of accounts and expense catcgory.
%%en an espense can bc identified as belonging to a specific category. it is coded and charged to
that categoq. For example, when travel reimbursements are submitted for payment, they are
codcd to the funding category of the caselproject that the travel is associated with.
Administrative and senera1 operating expenses arc generally coded as a shared expense.
However. thcrc are some espenses which can only be charged to the unrestricted catego9
(category 20). activities/expenses not pcrmissible under other funding categories. e.g.. mortgage
interest and principal payments, certain dues and fees espenses. It's the attention to detail and
understanding of the LSC guidelines that are the most important component of the codinp
process.

SllARED EXPENSES
For those expenses which cannot be identified as directly attributable to a specific category. e-g..
office supplies (with no direct expense component), telephone. insurances. etc.. these are coded
as "shared expenses." A sharcd expense is one Irthich is necessary and bencfits each category.
Generally the allocation orshared expenses is based on program staff time which is converted
into a percentage and applied against the shared expenses. This is a logical application since it
takes into account the fluctuating nature of program staff time.

MONTHLY ALLOCATIONS
An adjunct spreadsheet to the TA sprcadshcet is prepared on a monthly basis. the monthly
allocation spreadshcet. This spreadsheet lists 1) thc organization's total expenses for the month
on a line by line item basis: 2) the direct expenses attributable to tach category; 3) thc dift'crcnce
between a line item's total expenditures for the month less that line item's direct expenses.

The difference between total expenses less direct expenses provides the shared cxpcnscs to he
allocated to each category. This can also be verified by running a report in our financial system
on category 80 expenses to ensure thesc expenses tie out. The monthly percentage derived for
program staff for each category is uniformly applied linc-by-line to each balance for shared
cspcnses. The allocation of shared expenses is reviewed periodically throughout the year and
adjustnlents on the allocation of shared expenses are made as needed under direct supervision of-
the Executive Director.

The spreadsheets are prepared monthly, added together lo generate quarterly reports and then a
final spreadsheet which covers the entire fiscal year is built off ofthc monthly and quarterly data.

Finally. the shared espenses and direct cxpenses are added together on a line-by-line basis. This
fisure equates to the organization's total espenses for thc year. Any revisions made to the
allocations are supported by expensc/time documentation. require approval by thc F.sccutivc
Director and any approved adjustments are updated in the allocation spreadsheet and ClI,S'
financial system to ensurc consistency.
CILS stakeholder survey
This survey is designed to collect input from CILS' stakeholders (Board members,staffand
potentially others) on programmatic priorities and other topics related to CILS' current
organizational planning work. The scope of the survey may in some instances be beyond the
scope of our retreat. Your answers will help the Planning Team and a11 participants to
understand the context for our retreat discussion about programmatic priorities.

In order to help stimulate your thinking about CILS' work, we are including here CILS' most
recent Statement for Assessing Priorities and also the Finn Resume that was developed some
years ago. Please note that neither docwnent provides a complete picture of the work that CILS
does do or could do, and they are included here simply to give you a starting place in thinking
about the questions posed in this survey.

Survey results will be made available to all interested. Some interviews with stakeholders may
follow (feel h e to indicate on your survey if you have an interest in being interviewed).

Please provide your answers in this docwnent and return them to the facilitator
(spitzer@rootaction.org)by Monday, November 5. Advocates, you may record your time to
OAK-07-BSRPC,Cat 1.
If you would like to provide additional thoughts anonymously, please send them to the
facilitator. They will be shared in a way that does not identi@ you.

Thanks for your input. It is essential to the success of our retreat.


Name

Position




                                                                          CILS stakeholder survey
                                                                                        Page 1 of 2
1. What areas of practice and kinds of services do you believe CILS as an organization
   currently provides to Indians and Indian tribes in California?

2. What specific areas of practice and kinds of services do you believe CILS should
   provide to best serve Indians and Indian tribes in California? Please explain and
   rank your list in order of importance.

3. What do you believe are CILS' main organizational strengths and obstacles in doing
   tbis work?

4. What do you believe are the main externaYenvironmental challenges we face and
   opportunities available in doing this work?

5. How can we develop Boardktaff relationships to help us achieve CILS goals and
   priorities?

6. Please add any other thoughts you bave regarding CILS' work and priorities that
   you would like to share at this time.




                                                                 CILS stakeholder survey
                                                                             Page 2 of 2
California Indian Legal Services
Board-Staff Retreat Agenda
January 11-13,2008
Carlsbad, CA

Friday, January f 7
4:3&5:00 pm          Social hour (at meeting room)

5:00-630 pm          Facilitator's weIcome and review of agenda for Friday
                     Remarlrs fiom Executive Director
                     Rrmarks fiom Board Chair
                     Introductions
                     Icebreaker txacise

630-215 pm           Goals for Saturday and goals for Sunday
                     Agenda review
                     Orientation to strategic programmatic priority setting
                     Announcement re. dinner, Saturday morning

7: 15-7:30 pm        Break

7:30-8:30 pm         "Meet your colleagues" dinner (assigned seating)


Saturday, January 72
8:0&9:00 ani - Breakfast
9:OO-9:OS am         Introduction to tbe day

9:05-10:35           Fee-for-service vs. free legal services
                     Should CLlS coadnue to do b o l f-for-semMee wdj?ee kgd
                     services?        decide Uyes" as a p u p , how wouIdporrpr0pose
                     to improve this service delivery model? If you decide #nomas o
                     grorrp,pmpose an aIhmu&e model
                     Introduction
                     Breaking out groups
                     Break-out groups: 4 small-group discussions
                     Report-backs

10:35-10:45          Break
10:45-11:30          Priorities: Introduction
                     Summary of surveys
                   Review of priority list g e n e d fiom survey resu1ts
                   Indian v. Indian and impact litigation

                   Lunch
                   Priorities: individual services
                   mat should CIIS' c u r r e n t p r i o ~befor semMcxs
                                                                      to
                   indioiduoLt?
                   introduction
                   Breaking out groups
                   Break-out groups: 4 small-group discussions
                   Report-backs


                   Priorities: tribal services
                   mat should C U Dcurrentpriorilia befor services to tribes?
                   Introduction
                   Breaking out groups
                   Break-out groups: 4 small-pup discussions
                   Report-backs

                   Break

               '
                   Priorities: community services
                   mat should CILS8currentpriorities befor wmmuni@s a v i c s t
                   InMon
                   Breaking out gmups
                   Breakat groups: 4 small-group discussions
                   Report-backs

                   Wrap-up on priorities
                   Revisit any issues that did not get Mly discussed earlier
                   Raise additional priorities not mentioned already

                   Bnak
                   Social hour at CIaim Jumpers (across the f m y from hotel)

8:OO-9:OO pm               -
                   Dinner Claim Jumpen (across the freeway from hot@

Sunday, January 73

8:0019:00          Breakfast
9:OO-10:OO         Board-staff reflection session
                       Any Board questions for staft clarification, additional
                       information
                       What does it mean to be guided by priorities? What do
                       priorities mean for program operations?
                       Other reflection issues?


1O:OO-1:OO   Note: working lunch will be available at the Board and staff
             sessions h m 12-1

             Board session (not an on& Board meeting):
             Debriefing/-er      discussion re. priorities
             Plan re. next steps, timeframes,etc.
             Board Fundraising Comqittee

              Stafliratning s d n :
               10:OO- 10:30: pcnchrmide (Maureen and Mark)
                      Overview of status of Benchguide, need for additional.
                    - players to mrise and circula!e for comments
             .        Develop nalistic time fame for completion
                      Brief discussion ofNARF ICWA Guide

             1090-11:OO: SB 678 Issues (Maureen)
                    Receive input b  rn all staff on any issues arisingsince the
                    enactment of SB 678
                    Field questions reganling implementation and a r k of..
                    conCefIl
             -    - Possible legislative fixes
              11:OO-1200. ICWA CasesIService Calls (Dorothy and Maureen)
                    Identify ICWA cases we will handle and those we will not
                    (develop list to share and discuss M a with Devpn)
                    How do we hand1ebpond to calls fivm non-attorneys,
                    attonreys, social workas, health clinic staffl or bench
                    officers to questions regarding ICWA implementation,
                    requests for work product, etc.
             12S0-12:15: BREAK

                   -
             12:15 1250: 0(Dorothy
                 and MarSr)
                                          -
                    Overview of issues CILS case, new Iowa case, potential
                    misrepresentation, ICWA worker liability
                    DeveIopment of CILS program-wide policy on case file
                    documentation for all ICWA cases
                             Necessary tnil resolution language h r all ICWA cases
                             handled by CILS

                      12:SO-1:OO: Miscellaneous ICWA issues (All Staft)
  A g e d itemsfor discussion may take less than time than indicated Ifthat is the case
we will work through each item as listed. Devon will bejoining us at noon to discuss the
FTCi issues. 1will be askingfor a volunteer to take notes to prorltrce a memofor out
review post-meethg. Thankyou for your assistance.
